                        OFFICE OF THE INSPECTOR GENERAL
                        CORPORATION FOR NATIONAL AND
                              COMMUNITY SERVICE




                         PREAUDIT SURVEY OF THE
                   ALABAMA STATE COMMISSION ON NATIONAL
                         AND COMMUNITY SERVICE

                              OIG Audit Report Number 0 1-20
                                   September 15,2000




                                        Prepared by:

                                       KPMG LLP
                                   200 1 M Street, N.W.
                                  Washington, D.C. 20036

                            Under CNS OIG MOU # 98-046-5003
                               With the Department of Labor
                               DOL Contract # 5-9-G-8-0022
                                    Task # B9GOV203




This report was issued to Corporation management on February 9, 2001. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions
on the report's findings and recommendations no later than August 8, 2001, and complete its
corrective actions by February 9, 2002. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                                                                            CORPORATION

                                                                                            FOR NATIONAL
                                Office of Inspector General
                      Corporation for National and Community Sewice

                                Pre-Audit Survey of the
               Alabama State Commission on National and Community Service
                             OIG Audit Report Number 01-20

Introduction
The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.
Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although the
Corporation began state commission administrative reviews in 1999, the Corporation, historically, has
not carried out a comprehensive, risk-based program for grantee financial and programmatic oversight
and monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part
of state-wide audits under the Single Audit Act due to their size relative to other state programs.
Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including ArneriCorps Member activities and service hour reporting). They
are a tool that allows OIG to plan future audit work related to the state commission's operations. For
each survey, we also issue a report to the state commission and to the Corporation communicating the
results and making recommendations for improvement, as appropriate.
We engaged KPMG LLP toperform thepre-audit survey of the Alabama State Commission on National
and Community Service. The survey revealed a lack of records as well as serious dejciencies in the
Commission 'sfiscal administration and monitoringfunctions. Nonetheless, KPMG concluded that the
Commission 's records can be audited. KPMG recommended a full scope audit of CNSfunding for all
program years.
This pre-audit survey report includes recommendationsfor improvements at the Commission in all of
the areas covered by the survey. KPMG also recommends that the Corporation follow-up with the
Commission at least annually over the next three years, to determine that appropriate corrective actions
are put into place.




                                                                                        Inspector General
                                                                                        1201 New York Avenue, NW
                                                                                        Washington, DC 20525
Both the Alabama Commission and the Corporation responded to this report. Their responses are
included as Appendices C and D, respectively. The Commission's response is limited, but reports
certain improvements the Commission has implemented. The Corporation's response agrees with
certain of the findings and recommendations, but disagrees, in whole or in part , with others. KPMG
considered the responses and clarified certain of the recommendations.
CNS OIG has reviewed the report and work papers supporting its conclusions. We agree with the
findings and recommendations presented herein. Moreover, considering the serious internal control
weaknesses indicated by this survey and the lack of currently available records, we urge the Corporation
to provide the necessary technical assistance to strengthen the Commission's operations and to aid it in
preparing for a full-scope audit.
                                    Pre-Audit Survey of the
                   Alabama State Commission on National and Community Service
                                       Table of Contents



RESULTS IN BRIEF.......................................................................................................................
                                                                                                                                    1

BACKGROUND ............................................................................................................................. 3

OVERVIEW OF THE ALABAMA COMMISSION.....................................................................
                                                                                                    4

OBJECTIVES. SCOPE. AND METHODOLOGY .........................................................................
                                                                                                         5

FINDINGS AND RECOMMENDATIONS ....................................................................................
                                                                                                             7

APPENDIX A. COMMISSION FUNDING: 1994-95 THROUGH 1999-2000.........................A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ................................................................................................................ B .1

APPENDIX C. ALABAMA STATE COMMISSION ON NATIONAL AND
                                                                                                          C.1
   COMMUNITY SERVICE RESPONSE ...............................................................................

                                                                                                         D .1
APPENDIX D. CORPOMTION RESPONSE ...........................................................................
               2001 M Street, NW                                                   Telephone 202 533 3000
               Washington, DC 20036                                                Fax 202 533 8500




September 15, 2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG performed a pre-audit survey of the Alabama State Commission on
National and Community Service (the Commission). The primary purpose of this survey was to
provide a preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Our pre-audit survey procedures, including interviews with current Commission management,
revealed the following:

    Substantially all current Commission employees have been with the Commission for less
    than a year. The Executive Director is appointed by the Governor of Alabama, and the
    Comm~ssionhas experienced personnel turnover with each change in administration, as well
    as a change in location. During each change in administration, the records of the
    Commission were sent to archive storage and retrieved by new staff, potentially resulting in
    the missing records noted during our pre-audit survey.

    Certain information that is required to be on file to support the selection of subgtrantees for
    prior program years, such as potential subgrantees who applied for funding but were
    rejected, is not available. If compiled at this time from records available, there would be no
    assurance that the compilation was complete. In addition, the Commission cannot determine
    the policies and procedures used by the Commission staff to select subgrantees in program
    years prior to 1999-2000.




                                                                               1

1111               KPMG LLP KPMG LLPa U S l m ~ t e ditab8l~typartnershp, is
                   a member of KPMG lnt?rnational, a Swss assocaton
   The Commission has not developed an adequate process to evaluate a grant applicant's
   financial systems. As a result, grant funds may be provided to an organization that does not
   have financial systems in place to properly account for those funds and ensure compliance
   with related grant requirements.

   An analytical review of financial data is not performed in conjunction with grant
   administration. For example, draw-down requests and expenditures to date are not compared
   to supporting documentation or to budgets.

   The Commission has not developed written policies and implemented procedures to require
   that all internal financial reports be reviewed by the Executive Director, and that the review
   be documented. Therefore, an acceptable level of segregation of duties related to reporting
   at the Commission does not exist.

   The Commission does not have a comprehensive file of Commission-level Financial Status
   Reports (FSRs) and related supporting documentation prior to fourth quarter 1999. As a
   result, Commission-level FSRs and related supporting documentation are not available to
   support Commission-level financial results.

   The Commission does not have adequate records to support the State of Alabama's required
   match for the Corporation's grant funding. Without adequate documentation for all match
   amounts, the Commission cannot accurately support or determine if it has met the federal
   matching requirements.

   No formal training is provided by the Commission to Members on prohibited activities.
   Therefore, Members may unknowingly engage in activities which are prohibited while
   accumulating service or training hours.

   The fiscal and programmatic monitoring performed prior to program year 2000-01 utilized a
   checklist which provided information in a "yes/noWformat with little other supporting
   documentation; therefore, detailed information related to monitoring and site visits is not
   available.

    For subgrantees with multiple grants, site visit reports indicated that labor hour certifications
    were not maintained to support work charged to the Commission grant. As a result, policies
    and procedures at the subgrantee level are not sufficient to ensure that certifications are
    completed related to work performed on the Commission grant.

    The Commission lacks a formal process to ensure that progress reports, OMB Circular A-
    133 reports and other audit reports are received from subgrantees and reviewed on a timely
    basis. In addition, prior to program year 2000-01, there are no documented procedures for
    resolution of issues related to audit findings.

In July 1999, the Corporation for National and Community Service (the Corporation) noted in a
site visit report that the Commission did not maintain a staff of the appropriate size and skill to
carry out the Commission responsibilities and activities as required by Corporation guidelines.
The review also noted instances of missing documents, including time and attendance
certifications, Commission-level reports, and subgrantee responses to site visit reports. As
further discussed in this report, we noted similar issues at the Commission.
The section below entitled Findings and Recommendations describes the weakness noted above
in further detail and addresses additional issues noted during the survey.

Based on the results of the limited procedures we performed, our preliminary assessment is that
the Commission is auditable for all open program years, although the Commission's ability to
locate supporting documentation and provide explanations for activity prior to program year
1999-2000 may be limited. Therefore, we recommend the performance of a full scope audit at
the Commission for program years 1994-95 through 1999-2000.

Our limited procedures showed an improvement in the development and implementation of
policies and procedures during late 1999, which impacted and strengthened the controls for late
1999-2000. However, we believe the full scope audit should include this program year to ensure
that newly developed controls are functioning effectively to prevent significant noncompliance
with laws, regulations and grant agreements.

Additionally, we recommend that the Corporation follow-up with the Commission to determine
that appropriate corrective actions (including immediate training and technical assistance) are
put into place to address the conditions reported herein, and that the Corporation consider these
conditions in its oversight and monitoring of the Commission. Given the significant grants
management issues that the Commission has faced and the guidance it currently seeks to
improve controls further, the Corporation should perform site monitoring visits at the
Commission at least annually for the next three years and provide continued technical assistance
to aid in the correction of deficiencies noted below.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.
The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Alabama Commission

The Alabama State Commission on National and Community Service, located in Montgomery,
Alabama, has received federal grant funds from the Corporation since program year 1994-95.
The Commission consists of 15 Governor appointees. Commissioners are appointed for
approximately three-year terms. From the Commission's inception, the State of Alabama's
Department of Finance has served as the Commission's fiscal agent.

As of September 15,2000, the Commission had a staff of 6 full-time and 2 intern personnel
working under an Executive Director. The 6 full-time positions include a program officer,
technical training assistance officer, fiscal officer, public information manager, executive
assistant, and receptionist.

As part of the State of Alabama, the Commission is annually subject to statewide OMB Circular
A- 133 audits by the State Auditor. However, the State Auditor has not specifically performed
any compliance tests of federal grants administered by the Commission since 1998. The
procedures performed at that time were general in nature, and no material findings related to the
Commission were noted. The Commission's AmeriCorps grants have never been selected as
major programs.

The Commission provided us with the following information regarding funding received from
the Corporation since its inception:

                                                                         Number of Sub-
                                                                        grantees Subject to
                              Total Corporation       Number of            A- 133 Audit
        Program Year               Funding            Subgrantees         Requirements*

           1994-95               $1,365,708                 8
           1995-96                2,046,735                 6
           1996-97                2,052,930                 5
           1997-98                1,332,626                 4
           1998-99                1,899,753                 7
          1999-2000               1,854,849                 7

*   Determination is based solely on the dollar value of federal awards passed through the
    Commission for the program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional federal grant funds from other sources.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1994-95 through 1999-2000.
Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its Corporation-funded subgrantees, including
   AmeriCorps Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission. Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's State
   Administrative Standards Tool, and other information to gain an understanding of legal,
   statutory and programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission:

    obtaining information from Commission management to document the Corporation grant
    funding for program years 1994-95 through 1999-2000; and

    performing procedures to achieve the objectives detailed in Appendix B to assess the
    Commission's internal controls, selection of subgrantees, administration of grant funds, and
    monitoring of grants, including internal controls over service hour and program
    accomplishment reporting.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on September 27,2000.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission or its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.
We provided a draft of this report to the Commission and the Corporation. The Commission's
and the Corporation's responses to our findings and recommendations are included as Appendix
C and Appendix D, respectively. We considered their comments and clarified the wording
related to the following recommendations: 1) procedures for disbursements to subgrantees and
2) providing formal training on prohibited activities to members. We continue to believe these,
and other recommendations presented in the Findings and Recommendations section of this
report, if implemented, will result in improvements to internal controls over Commission
operations.
Findings and Recommendations

The Commission is in the process of documenting its policies and procedures relating to the
selection of subgrantees, administration of grant funds, and evaluation and monitoring of
subgrantees. As this project is completed, we recommend that the Commission consider the
recommendations discussed below.

Selecting Subgrantees

According to 45 CFR Section 2550.80(b)(l), "Each State must administer a competitive process
to select national service programs to be included in any application to the Corporation for
funding." Prior to 1999-2000, no documentation exists to provide evidence that the Commission
developed and implemented various procedures necessary to meet this responsibility, or that
procedures were consistently applied to all program years.

We identified the following areas for improvement within the selection process.

        Lack of a Comprehensive Applicant Listing

The Commission does not have a comprehensive listing of grant applicants prior to program year
2000-0 1. We tested two application files for program year 1999-2000 and noted that the reasons
for rejection were documented and communicated to the applicant; however, due to the lack of a
comprehensive listing of grant applicants, we were not able to determine a complete population
for sampling purposes. As a result, the overall fairness of the selection process could not be
tested.

        Luck of Documrnted Subgrantee Selection Procedures

Current Commission management does not know what, if any, written subgrantee selection
guidelines and procedures were employed prior to program year 1999-2000 because of a lack of
documentation. An important part of a sound control environment should be the maintenance of
written procedures to provide guidance for all key processes performed by an entity.

        Financial Systems Not Evaluated as Part of Subgrantee Selection

The Commission has not developed an adequate process to evaluate a grant applicant's financial
systems. As a result, grant funds may be provided to an organization that does not have financial
systems in place to properly account for those funds and ensure compliance with related grant
requirements. AmeriCorps Provisions Section C.21 .a states, "The grantee must maintain
financial management systems that include standard accounting practices, sufficient internal
controls, a clear audit trail and written cost allocation procedures as necessary." In order to meet
this responsibility, the Commission must be able to ensure that subgrantees have systems in
place to accurately track expenditures, since this information forms the basis of a majority of
Commission expenditure reporting.

        Prior Subgranter Evaluations Not Provided to Selection Oficials

For program years prior to 1999-2000, communication of renewal applicants' prior evaluations
was not addressed in guidance provided to selection officials. Therefore, there is increased risk
that Commission personnel may have provided certain information to the selection officials
about one previously funded applicant, but omitted that information in their communications
about other previously funded applicants. If similar information was not consistently
communicated about each previously funded applicant, then the fairness of the selection process
may have been impaired and Commission personnel may have unintentionally biased the
selection officials. An important part of a sound control environment is the consistent
communication of the results of previous interactions with applicants. Such information is
crucial to making informed business decisions in the subgrantee selection process.

        Lack of Mass Media Advertising

The Commission does not use mass media advertising for notice of funds availability. As a
result, all interested parties may have not been informed of funding availability, thereby
eliminating certain potential AmeriCorps programs from the selection process.

        Missing or Unsigned Conflict of Interest Forms

Conflict of interest forms could not be located for 2 of 15 current Commissioners. In addition,
signatures were missing on 4 of 13 current Commissioner conflict of interest forms reviewed. If
Commissioners or selection officials have conflicts of interest but do not report them, the
fairness of the selection process may be impaired. An important part of a sound control
environment is the implementation of procedures to ensure objectivity within the selection
process. One method to ensure thls objectivity is to require selection officials to annually certify
in writing that they have no conflicts of interest.

        Recomnzendations

We recommend the Commission focus on measures for improving the effectiveness of lts
subgrantee selection process as follows:

    Establish a file each year for denied applications. When applications are received, log the
    application on a sheet in the front of the file. Flle the applications along with the selection
    officials' reports documenting the reasons for denial and Commission's concurrence and all
    correspondence related to the application.

    Incorporate into its procedures for subgrantee selection, an evaluation of the adequacy of the
    applicants' financial systems to ensure applicants have systems in place to properly account
    for grant funds and comply with related grant requirements.

    Develop and implement an objective, standardized method of communicating the results of
    the Commission's evaluation of previously funded applicants. This method should ensure
    that the same type of information is communicated for each applicant. The Commission
    should also consider providing this information in writing to ensure consistency of content
    and availability of the information to the selection officials while they are making their
    funding determinations.

    Place notice of funds availability in major state-wide publications or utilize other forms of
    mass media.
   Develop and implement procedures that require Commissioners and selection officials to
   sign conflict of interest statements annually after discussion of related issues with
   Commission staff and review of guidance provided.

Administering Grant Funds

As part of the grant administration process, "Grantees are responsible for managing the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity" (45 CFR Section 2541.4OO(a)).

We identified the following areas for improvement related to the administration of grant funds at
the Commission and to the evaluation of subgrantee compliance with reporting and other
administrative grant requirements.

        Lack of Proper Procedures over Disbursements to Subgrantees

An analytical review of financial data is not performed in conjunction with grant administration.
For example, draw-down requests and expenditures to date are not compared to budgets provided
by the subgrantees, and Commission personnel do not Investigate if a subgrantee has requested
draw-down of an excessive portion of grant funds early in the program year. In addition,
Commission personnel do not review actual documentation (e.g., receipts) in connection with
their review of draw-down requests or subgrantee FSRs. Wlthout proper documented review of
subgrantee FSRs, errors on the FSRs may not be detected. Also, if information reported on
subgrantees' FSRs are not agreed to the subgrantees' accounting system and other supporting
documentation, there is an increased risk that sitbgrantees are incorrectly reporting amounts on
their FSRs. AmeriCorps Provisions Section C.20.a states, "The Grantee has full fiscal and
programmatic responsibility for managing all aspects of grant and grant-spor~soredactivities,
subject to the oversight of the Corporation. The Grantee is accountable to the Corporation for ~ t s
operation of the AmeriCorps Program and the use of Corporation grant funds."

        Inadequate Grant Administration Policies and Procedures over Timeliness of
        Subgrantee Report Submission and Audit Follow-Up

While the Commission has a relatively small number of subgrantees, it lacks a formal process to
ensure that FSRs, progress reports, OMB Circular A-1 33 reports and other audit reports are
received from subgrantees and reviewed on a timely basis. In addition, prior to program year
2000-01, there are no documented procedures for resolution of issues related to audit findings.
OMB Circular A-133 Compliance Supplement, March 2000, Part 6 - Internal Control suggests
that review of and follow-up on subgrantee audit reports is a key component of a program to
monitor subgrantees compliance with federal requirements.

        Lack of Prohibited Activities Training

The Commission does not provide formal training to Members on prohibited activities.
AmeriCorps Provisions Section B.4 states, "While charging time to the AmeriCorps Program . .
staff and members may not engage in the following activities . . ." Without specific trainlng
related to the types of activities prohibited by the AmeriCorps program, Members may
unknowingly engage in activities which are expressly prohibited while accumulating service or
training hours.

        Lack of Commission-Level Records and Supervisory Review

The Commission does not have a comprehensive file of Commission-level FSRs and related
supporting documentation prior to the fourth quarter 1999. In addition, review of internal
Commission-level financial reports is not documented in writing. As a result, Commission-level
FSRs and related supporting documentation are not available to support Commission-level
financial results. AmeriCorps Provisions Section C.20.a states, "The Grantee has full fiscal and
programmatic responsibility for managing all aspects of grant and grant-sponsored activities,
subject to the oversight of the Corporation. The Grantee is accountable to the Corporation for its
operation of the AmeriCorps Program and the use of Corporation grant funds." In addition, the
AmeriCorps Provisions Section C.26 states that the Commission must maintain records for three
years from the date of submission of the final FSR.

        Lack of Documentation of Required State Match

The Commission does not have records which support that the State of Alabama has in fact
advanced funds or provided in-kind matching contributions, as required. In accordance with the
OMB Circular A-133 Compliance Supplement, one of the basic criteria for an acceptable match
is that amounts are verifiable from the entity's records. Without adequate documentation for all
match amounts, the Commission cannot accurately support or determine if it has met the federal
matching requirements. Further, accurate valuation of contributions from the State of Alabama
can aid in the budget planning process through identifying exact additional amounts needed to
complete the match.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its grant
administration process as follows:

    Consider developing written policies and procedures which require that an analysis of
    expenditures to date versus budget amounts be prepared prior to authorizing draw-downs.
    We recommend that the Commission review subgrantee draw-down requests and FSRs and
    formally document what review procedures were performed. We also recommend that the
    Commission include examples of the FSRs reviewed and document procedures performed in
    agreeing subgrantees' FSRs to their accounting systems or other supporting documentation
    as part of site visits.

    Develop and implement formal procedures to ensure that OMB Circular A-133 reports or
    other audit reports are received from applicable subgrantees on a timely basis and that
    review of the report is documented. The Commission should implement a "received
    stamptdate" process to document when reports are received. In addition, formal procedures
    for resolving audit issues should be developed and documented.

    Develop a formal training module on prohibited activities to be presented during new
    Member orientation.
   Develop and implement policies and procedures to ensure that Commission-level FSRs and
   related supporting documentation are maintained. In addition, the Executive Director should
   review all financial reports monthly and initial them to indicate his review. The Commission
   should also maintain documentation to support all cash and in-kind matching contributions.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved. OMB Circular A-133 (Subpart d, Section 400 d) sets forth pass-through entity
responsibilities which include communicating specific award information to subgrantees,
advising subgrantees of specific grant award requirements, monitoring the activities of
subgrantees to ensure compliance with grant provisions, ensuring subgrantees that expend
$300,000 or more of pass-through dollars have met the OMB Circular A-133 audit requirements,
issuing management decisions on any findings contained in any required OMB Circular A-133
audit reports, considering the effect of any noted compliance findings on the grantee's own
records, and requiring subgrantees to provide access to records, as necessary to ensure
compliance. We identified the following areas for improvement related to the evaluation and
monitoring of subgrantees.

        Luck of Proper Site Visit Policies and Procedwes

The Commission does not maintain a list~ngof site visits performed, and there is a lack of
control over ensuring that site visits are perfomled timely. In addition, the Commission does not
have written policies and procedures to follow up on subgrantees responses to site visit
comments and determine that corrective action has been taken.

        Inadequate Subgrantee Monitoring Docuinentation

The monitoring tool used prior to program year 2000 was in a "yeslno" answer format.
Therefore, little detail is available related to monitoring activities. For example, Commission
personnel stated that they reviewed the financial system (a "yes" answer), but there is no
explanation of the system or details supporting their conclusion. Commission personnel do not
document the sample items tested or their rationale for sample selection. Such information
should be documented to support site visit testing of Member timesheets, personal expenses,
matching expenses, and programmatic accomplishment statistics. In addition, the monitoring
tool lacks specific sections related to review for prohibited activities and review of Member
allowances and hours accumulation. As a result, control weaknesses or instances of material
noncompliance related to the AmeriCorps program of which the Commission is not aware may
exist and not be detected or corrected. AmeriCorps Provisions Section C.20.a mandates fiscal
and programmatic responsibility for managing all aspects of grant and grant-sponsored activities.

        Missing Labor Hour Certzfications

AmeriCorps Provisions Section C.21.a states, "The grantee must maintain financial management
systems that include standard accounting practices, sufficient internal controls, a clear audit trail
and written cost allocation procedures as necessary. Financial management systems must be
capable of distinguishing expenditures attributable to this grant from expenditures not
attributable to this grant." Further, OMB Circulars A-87 for state and local governments and A-
122 for nonprofit organizations, require that effort reporting systems be in place to support labor
hours charged to grant awards. Adequate labor certifications can suffice for the required effort
reporting system. However, for subgrantees with multiple grants, the site visit reports we
reviewed indicated that labor hour certifications were not maintained to support work charged to
the Commission grant for the period under review. As a result, policies and procedures at the
subgrantee level are not sufficient to ensure that that the work of subgrantee personnel is
specifically related to the Commission grant and that the required effort reporting systems are in
place.

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

    Establish and follow an annual site visit plan. In addition, we recommend that the
    Commission clearly document the results of all site visits and related resolution of all
    identified issues.

    Develop a site visit tool which provides for:

        Review of documentation supporting Member ehg~bility.

        Review of Member timesheets to:

        --   Ensure that a supervisor approved the hours recorded and that the supervisor had
             appropriate knowledge of the Member's activities.

             Determine whether hours were spent on allowabk activities and in accordance with
             the intent of the grant and the program, and that prohibited activities were not
             performed.

        -    Agree hours into the tracking system used by the subgrantee to determine
             completion of educational service award requirements.

        Review of Member contracts.

        Review of change of status forms and forms used to document waivers for compelling
        personal circumstances, and eligibility for day care.

         Interview of Members about timesheets, Member contracts, prohibited activities, and
         day care eligibility.

         Review of living allowance to determine if it was paid according to established
         guidelines.

         Agreement of total hours in the tracking system to hours reported on the end-of-term
         form for Members who have earned awards. Ensure hours met minimum requirements
         for award certified as earned (full time, part time or reduced part time).

         Documentation of items selected for review and rationale for sample slze.
   Develop and implement written policies and procedures to ensure appropriate corrective
   actions are taken and issues are resolved and documented when deficiencies have been
   noted.

    Emphasize the importance of completion of labor hour certifications to support time charged
    to Corporation grants.




This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Alabama State Commission on National and Community Service, and the United States
Congress and is not intended to be and should not be used by anyone other than these specified
parties.
                                Commission Funding                          Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding
since 1994-95. We were unable to agree the funding amounts to the Commission's FSRs for (a)
1999-2000 because the final FSR for the program year had not been completed at the time of
field work and (b) previous program years because those FSRs had been prepared on a
cumulative, not program year, basis.

Funding Source
and Type

CNS Formula
 Grant Funds

CNS Competitive
 Grant Funds

CNS PDAT
 Funds

CNS Administrative
 Funds

State Matching
 Funds
                              Commission Funding                               Appendix A




                       Corporation for National Service

Funding to the Alabama State Commission on National and Community Service
                                1994-95




r
Americorps




I
 Formula
  Funds
 $801,640

 Match
                         Americorps
                         Competitive
                           Funds
                          $305,630

                            Match
                             $0
                                                   PDAT
                                                   Funds


                                                   $65,000
                                                                      Admin~stration
                                                                          Funds
                                                                        $ 193,438
                                                                          Match
                                                                         $81,640
                                                                       Other CNS
                                                                          Funds




                              *
             Total CNS Funds Retained by the Commission $258,438

                      Total State Matching Funds $8 1,640

             Total CNS Funds Awarded to Sub-grantees $1,107,270




                      Americorps                    Americorps
                       Formula:                     Competitive:
                       $801,640                      $305,630

                         Match                         Match
                      Not Available                 Not Available

                     Total # of SUBS               Total # of SUBS
                             7                             1

                     Total # of Sites              Total # of Sites
                            7                             1
                             Commission Funding                                           Appendix A




                         Corporation for National Service

Funding to the Alabama State Commission on National and Community Service
                                1995-96




      Americorps            Americorps         PDAT                      Administration
       Formula              Competitive        Funds                         Funds
         Funds                Funds                                        $312,533
      $ 1,069,928            $574,274                                        Match
                                               $90,000                      $ 69,394
       Match                   Match                                      Other C N S
                                $0                                           Funds
                                                                               $0




                                 +               +                           +
            Total CNS Funds Retained by the Commission $402,533

                       Total State Matching Funds $69,394

               Total CNS Funds Awarded to Sub-grantees $1,644,202




                        Americorps                       Americorps
                         Formula:                        Competitive:
                        $ 1,069,928                       $574,274

                          Match                           Match
                       Not Available                   Not Available

                       'otal # of SUBS                 Total # of SUBS
                               5                               1

                       Total # of Sites                Total # o f S~tes
                              5                                1
                                                                                      Appendix A
                             Commission Funding




                           Corporation for National Service

    Funding to the Alabama State Commission on National and Community Service
                                    1996-97
L




           Americorps
            Formula
                              Americorps
                              Competitive
                                               I

                                                   PDAT
                                                   Funds
                                                                     -
                                                                     Administration
                                                                         Funds
              Funds             Funds                                  $428,151
           $ 1,055,835         $472,944                                  Match
                                                                        $69,394
            Match                Match                                Other CNS
                                                                         Funds
                                                                          $0




                                                    *
                Total CNS Funds Retained by the Commission $524,15 1
                                                                     -r
                                                                      *
                          Total State Matching Funds $69,394

                  Total CNS Funds Awarded to Sub-grantees $1,528,779




                             Americorps            Americorps
                              Formula:             Competitive:
                             $ 1,055,835            $472,944

                                Match                 Match
                             Not Available         Not Available

                            Total # of SUBS       Total # of SUBS
                                   A                      1

                            Total # of Sites      Total # of Sites
                                   9                     1
                         Commission Funding                                        Appendix A




                      Corporation for National Service

Funding to the Alabama State Commission on National and Community Service
                                1997-98




       Americorps                            PDAT                 Administration
        Formula          Competitive         Funds                   Funds
         Funds             Funds                                    $65,271
        $803,318                                                     Match
                                                                    $93,747
        Match              Match                                   Other CNS
                                                                     Funds
                                                                      $0




           +                 +                 +                  -I- +
            Total CNS Funds Retained by the Commission $166,164


I                    Total State Matching Funds $93,747

             Total CNS Funds Awarded to Sub-grantees $1,166,462



                         i                     i
                           Americorps           Americorps
                            Formula:            Competitive:
                            $ 803J 18            $ 363,144

                             Match                 Match
                          Not Ava~lable         Not Available

                         Total # of SUBS       Total # of SUBS
                                 3                     1

                         Total # of Sites      Total # of Sites
                                13                    1
                        Commission Funding                           Appendix A




                     Corporation for National Service

Funding to the Alabama State Commission on National and Community Service
                                1998-99




           Total CNS Funds Retained by the Commission $236,567

                    Total State Matching Funds $101,655

            Total CNS Funds Awarded to Sub-grantees $1,663,186

I




                            v                    v
                         Americorps         Americorps
                          Formula:          Compet~tive:
                         $ 1,382,642         $280,544

                            Match              Match
                         Not Available      Not Ava~lable

                        Total # of SUBS    Total # of SUBS
                                6                  1

                        Total # of Sites   Total # of Sites
                              26                  1
                                                                               Appendix A
                           Commission Funding




                        Corporation for National Service

Funding to the Alabama State Commission on National and Community Service
                                1999-2000




      Americorps            Americorps            PDAT        Administration
       Formula              Competitive           Funds           Funds
         Funds                Funds                             $230,945
      $ 1,343,228            $224,996                             Match
                                                 $55,680        $ 1 16,655
       Match                  Match                            Other CNS
                                                                  Funds
         $0                    $0
                                                                    $0




          v                     v                  *                v
              Total CNS Funds Retained by the Commission $286,625

                      Total State Matching Funds $1 16,655

               Total CNS Funds Awarded to Sub-grantees $1,568,224
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.


In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; procurement, suspension and debarment; subgrantee
monitoring; and reporting by the Commission to the Corporation. We then interviewed key
Commission personnel to assess the Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms were signed by selection officials annually and maintained
by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, and change of status forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We also preliminarily assessed whether the Commission's
implementation of the Web Based Reporting System (WBRS) had enhanced the grant
administration process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to implement a comprehensive, non-duplicative evaluation and monitoring
    process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals;

    make a preliminary assessment of internal controls over service hour and program
    accomplishment reporting; and
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B


   make a preliminary assessment of the adequacy of the procedures in place to evaluate
   whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
                                                                               Appendix C




                                                                      RSA Unlon Bulldlng. S u m 134
                                                                             I00 North Unlon Street
                                                                       Montgomery. Alabama 36 130
                                                                                    (334)242-7 1 10
                                                                               Fax: (334)242-2885
                                                             JNITY   SERVICE




January 22, 2001




Ms. Luise Jordan
Inspector General
Corporation for National Service
1201 New York Avenue, NW
Washington, DC 20525


Dear Ms. Jordan:

The Alabama Commission on National and Community Service has received the draft
report of the pre-audit survey conducted by KPMG in September 2000. Thank you for
the opportunity to comment on the report.

In November 2000, Governor Don Siegelman asked me to serve as the Executive
Director of the Alabama Commission. Upon accepting this appointment, I began a
thorough review of Commission operations. While we have not yet completed an in-
depth analysis of Commission operations back to 1994, we are currently examining our
policies and procedures to ensure adequacy and compliance in all areas. We are also
reorganizing files to ensure that appropriate records exist to document the Commission's
activities in managing the AmeriCorps grants.

Without the completed internal review, I am unable to respond to all findings contained
in the report. However, 1 am pleased to provide the responses to the following issues:

Selecting Sub~rantees:
           Conflict of Interest Forms are currently available on all commissioners.
           Forms are signed yearly.
           This ofice has established a file of denied applications.
             A notice of AmeriCorps hnd availability is sent to a statewide database of
             about 500 addresses. Also, it is advertised in select local newspapers, radio
             stations and other publications.


Administering Grant Funds:
         Prohibited Activities are discussed with new AmeriCorps Members at the
         member launch and are printed on a bookmark that is given to each new
         member.
         While we know of no requirements for an analysis of expenditures to date
         versus budget amounts, we feel that the use of WBRS by all our programs fills
         this need.


Evaluatin~and Monitoring Sub~rantees:
         Currently certification forms are signed yearly for all employees whose work
         hours are dedicated 100% to ArneriCorps. Those employees whose time is
         divided, will also complete certification forms stating the number of hours
         dedicated to AmeriCorps.

Again, we are reviewing our policies and procedures for adequacy and compliance in all
areas, and are working closely with the Corporation for National Service to achieve this.
This ofice has been in almost constant transition with regards to leadership, personnel
and location. It is our plan to create new and adequate procedures for operation as a
result of this audit.


Sincerely,



Gina Bailey McKell
                                                                CORPORATION

                                                                F O R NATIONAL
                                                                USERVICE




MEMORANDUM


To:                   Luise Jordan, Inspector General
Through:              William Anderson, Acting Chief Financial
From:                 Peter Heinaru, Director, Amencorps Statemation
Subject:              Comments on the 01G Draft Report 01-20, re- hit Survey of the Alabama
                      Commission on National and Community Service
Date:                 January 23,200 1


We have reviewed the draft report of the pre-audit survey of the Alabama Commission on
National and Community Serve and have the following comments on the report's findings and
recommendations.

In the area of Selectinp National Service P r o ~ r a m sthe
                                                         , report makes five recommendations for
improving the effectiveness of the process. The Corporation concurs with four of the
recommendations and notes that the corresponding findings pertain primarily to years prior to
current Commission operations. We will work with the Alabama Commission to develop andlor
improve protocols for the grant selection process.

Concerning the finding under Lack of miss media advertising that the Commission "does not use
mass media advertising for notice of funds availability," we note that there is no Corporation
requirement for mass media advertising; therefore, we disagree with this recommendation. State
commissions must follow their state requirements for informing eligible applicants of funds
availability. The Commission currently uses several mechanisms for broadly advertising grant
funds.

In the area of administer in^ Grant Funds, the report recommends that "the Commission focus
on measures for improving the effectiveness of its grant administration process.. ."

The Corporation concurs with the second and fourth recommendations and is working with the
Alabama Commission to develop appropriate policies and procedures for ensuring proper
tracking, review and resolution of A-133 audits;for the preparation and review of Financial
Status Reports; and for documenting match for state-level grants. We also note that within the
past month, the Commission's accounting and financial management function has been moved



 NATIONAL SERVICE: GETTING THINGS DONE
 .Amencorps   . k a r n tlnd Serve Amenca . ?iational Senlor Sewicr C j r p   a   1201 New York Avenue. N.W Washington. D.C.20525
                                                                                  telephone:202-606-5000 webnte: www.nationalse~ce.org
Ms. L u ~ s eJordan                          Page 2                               January 2 3 . 200 1


into the Alabama Department of Economic and Community Affairs, a state agency with staff
experienced in managing federal grants.
                      . *
The Corporation strongly:disagrees with the first recommendation that analysis of expenditures
is required before ~ o m & s i o n may
                                   s authorize draw-downs by subgrantees. Commissions may
advance funds or pay on cycles not directly connected with a fiscal report. We recommend that
Commissions be aware of totals advanced and amounts expended to date of last fiscal report to
generally assure reasonableness of draw-downs but do not need to do expense analysis for each
draw-down.

Also in the first recommendation, the auditors recommend that the Commission agree FSRs to
supporting documentation on site visits. In doing so, the auditors attempt to direct the
establishment of arbitrary, exacting standards for the Commission's monitoring of its programs.
The Corporation advocates a risk-based strategy for monitoring programs that considers the
experience, organizational history and past performance, including programmatic and financial
elements. The Corporation, like other Federal agencies, requires its grantees and subgrantees to
use the OMB A- 133 audit as the primary basis for oversight of its awards. These audits cover
the entire operations of the subgrantee including internal controls and compliance with laws,
regulations and award provisions. For organizations not required to have an A- 133 audit, the
Commission must consider what, if any, additional procedures are needed to ensure adequate
oversight. OMB Circular A-1 10, addressing Administrative Standards and adopted by the
Corporation in regulation, also addresses higher-risk grantees and consideration for additional
monitoring by the Commission.

The Corporation is working with the Alabama Commission to ensure that its monitoring strategy
for subgrantees, including review of FSRs, is risk-based and adequate.

The Corporation disagrees with the report's finding and recommendation that it is the
responsibility of the Commission to train members on prohibited activities. Through a review of
member contracts and by reviewing individual program's member training agendas,
Commissions can ensure that programs are appropriately training their members about
prohibited activities. It appears that currently the Commission is ensuring that its programs are
adequately training members and members are aware of prohibited activities.

In the area of Evaluatin~and Monitoring of Sub~rantees,the report makes four
recommendations for improving the effectiveness of the Commission's monitoring practices.

Regarding the first recommendation, we support the concept of a risk-based annual site visit plan
and documenting results and resolutions.

While we agree that the Commission should have adequate site visit tools available, the risk-
based strategy should determine when and what tools should be used on site visits. Thus, we do
not agree with the part of this recommendation that the Commission develop a rationale for
sample size in reviewing member timesheets andfinancial records and in documenting items
selected for review. This recommendation suggests that program managers use audit techniques
including sampling and the performance of specific programmatic and fiscal reviews for every
Cls L u ~ s eJordan                           Page 3                               Januap ' 3 . '00 i


award, concepts not normally associated with or required by Federal management standards as
articulated in OMB Circulars A- 102, A- 110, and A- 133.

As noted above, the'tsrporation advocates a risk-based strategy for monitoring programs, and
we are working with the Alabama Commission to ensure that its monitoring strategy for
subgrantees is risk-based and adequate.

We note that the report indicates the Commission identified in site visits that labor hour
certifications were missing. The report does not note that as a result of the Commission review,
the issue was addressed and corrected.
